<html>
<title> - CONFRONTING VIOLENT WHITE SUPREMACY (PART IV): WHITE SUPREMACY IN BLUE_ THE INFILTRATION OF LOCAL POLICE DEPARTMENTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
                  CONFRONTING VIOLENT WHITE SUPREMACY

                  (PART IV): WHITE SUPREMACY IN BLUE_

                   THE INFILTRATION OF LOCAL POLICE


                              DEPARTMENTS

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND CIVIL LIBERTIES

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 29, 2020

                               __________

                           Serial No. 116-121

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      
      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                              ______                      


               U.S. GOVERNMENT PUBLISHING OFFICE 
41-981 PDF              WASHINGTON : 2020                              
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Wm. Lacy Clay, Missouri              Jim Jordan, Ohio
Stephen F. Lynch, Massachusetts      Paul A. Gosar, Arizona
Jim Cooper, Tennessee                Virginia Foxx, North Carolina
Gerald E. Connolly, Virginia         Thomas Massie, Kentucky
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Gary Palmer, Alabama
Harley Rouda, California             Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

                     David Rapallo, Staff Director
                    Candyce Phoenix, Chief Counsel 
                          Amy Stratton, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                

            Subcommittee on Civil Rights and Civil Liberties

                    Jamie Raskin, Maryland, Chairman
Wm. Lacy Clay, Missouri              Chip Roy, Texas, Ranking Minority 
Debbie Wasserman Schultz, Florida        Member
Robin L. Kelly, Illinois             Thomas Massie, Kentucky
Jimmy Gomez, California              Jody B. Hice, Georgia
Alexandria Ocasio-Cortez, New York   Michael Cloud, Texas
Ayanna Pressley, Massachusetts       Carol D. Miller, West Virginia
Eleanor Holmes Norton, District of 
    Columbia
Rashida Tlaib, Michigan

                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on September 29, 2020...............................     1

                               Witnesses

Michael German, Fellow, Brennan Center for Justice
Oral Statement...................................................     9
Vida B. Johnson, Associate Professor of Law, Georgetown 
  University
Oral Statement...................................................    11
Frank Meeink, Author and Activist
Oral Statement...................................................    13
Mark Napier (Minority Witness), Sheriff, Pima County, Arizona
Oral Statement...................................................    14
Heather Taylor, President, Ethical Society of Police, St. Louis
Oral Statement...................................................    16

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are listed below/available at: 
  docs.house.gov.

  * Wall Street Journal , ``Who Watches the `Hate' Watchers?'' 
  article; submitted by Rep. Roy.

  * Department of Justice Report, ``Hate Crime Victimization''; 
  submitted by Rep. Ocasio-Cortez.

  * CNN, ``DOJ Hate Crime Victimization Report Summary''; 
  submitted by Rep. Ocasio-Cortez.



                  CONFRONTING VIOLENT WHITE SUPREMACY

                  (PART IV): WHITE SUPREMACY IN BLUE--

                    THE INFILTRATION OF LOCAL POLICE

                              DEPARTMENTS

                              ----------                              


                      Tuesday, September 29, 2020

                   House of Representatives
   Subcommittee on Civil Rights and Civil Liberties
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 10:13 a.m., 
via WebEx, Hon. Jamie Raskin (chairman of the subcommittee) 
presiding.
    Present: Representatives Raskin, Clay, Wasserman Schultz, 
Kelly, Gomez, Ocasio-Cortez, Pressley, Norton, Tlaib, Maloney 
(ex officio), Roy, and Comer (ex officio).
    Mr. Raskin. Good morning. The subcommittee will come to 
order. And without objection, the Chair is authorized to 
declare a recess at any time.
    Welcome to the Oversight Subcommittee on Civil Rights and 
Civil Liberties hearing entitled ``White Supremacists in Blue--
The Infiltration of Local Police Departments.''
    Good morning to the Chair of the committee, Mrs. Maloney, 
who has joined us. Good morning to our ranking member, Mr. Roy, 
who is with us. And good morning to the vice chair of the 
committee, Ms. Ocasio-Cortez, and all of our other wonderful 
members who have joined us.
    I want to take a moment to extend a special welcome to 
Representative Rashida Tlaib of Michigan to our subcommittee. 
This is her first hearing with our subcommittee and we're 
delighted to have her join us.
    Welcome, Ms. Tlaib.
    Before we begin today, I want to play a video that will set 
the stage for the discussion that we're about to have.
    Clerks, please go ahead and play the video.
    [Video shown.]
    Mr. Raskin. This is the fourth hearing our subcommittee has 
had on the problem of White supremacist violence in America. 
Since the murders of George Floyd and Breonna Taylor, we have 
also held a separate set of briefings on police brutality in 
communities of color and rampant violations of the First 
Amendment at civil rights protests by the Trump administration.
    Today, we'll examine how these different threats to the 
American people intersect--namely, how White supremacist 
organizations, ideas, and attitudes have come to infiltrate and 
target certain domains of law enforcement.
    The bloody trail of violent White supremacy is now 
splattered across America:
    Charleston, South Carolina, where White supremacist Dylann 
Roof slaughtered nine African American parishioners at worship 
in the Emanuel African Methodist Episcopal Church.
    Charlottesville, Virginia, where hundreds of neo-Nazis and 
Klansmen rioted and wounded dozens of people and killed Heather 
Heyer in a terrible attack by automobile.
    Pittsburgh, Pennsylvania, where a neo-Nazi killed 11 people 
and wounded six at the Tree of Life Synagogue as they 
worshipped.
    Poway, California, another anti-Semitic rampage.
    El Paso, Texas, where a White supremacist hyped up on anti-
immigrant hate killed 23 people and wounded 23 others in a 
rampage at a Walmart.
    According to the Anti-Defamation League, 75 percent of all 
extremist-related murders between 2009 and 2018 were committed 
by right-wing extremists. The Center for Strategic Studies, 
which analyzed over 900 politically motivated attacks in the 
U.S. since 1994, found that there have been nearly six times as 
many victims of violence from right-wing groups as from others. 
In 2020, they found that over 90 percent of political attacks 
were conducted by right-wing groups. These are the facts.
    Like COVID-19, this virus of violent White supremacy is 
spreading. The Southern Poverty Law Center documented a record 
30 percent increase in the number of hate groups nationwide 
over the last several years and hate crimes are also trending 
up.
    But as with COVID-19, the Trump administration has decided 
to mislead the public by downplaying the problem. A Department 
of Homeland Security whistleblower has stated that Ken 
Cuccinelli told him to specifically modify draft language on 
White supremacy to make, quote, ``the threat appear less 
severe,'' and to ``include information on the prominence of 
violent 'left-wing' groups.''
    The spread of violent White supremacy is a threat to 
everyone, but disproportionately it is a threat to Black and 
Brown communities. But it is also a threat, and purposefully 
underestimating this problem is a threat, to first responders, 
in this case, to police officers.
    According to the Anti-Defamation League, White supremacists 
and other far right extremist groups have killed 51 police 
officers since 1990. Eighty-three percent of shootouts between 
police and extremists involve right-wing extremists, with White 
supremacists being responsible for more than half of those.
    The unredacted memo we released today from the FBI states 
that, quote, ``White supremacist presence among law enforcement 
personnel is a concern due to the access they may have to 
restricted areas vulnerable to sabotage and to elected 
officials or protected persons that they could see as targets 
for violence. White supremacy is a deadly threat to the safety 
of law enforcement officers as well as to public safety 
generally.
    In May, far right extremists killed David Patrick 
Underwood, a Federal law enforcement officer. One of the 
Boogaloo boys charged in Underwood's death is a former Air 
Force sergeant also suspected in the murder of a Santa Cruz 
sheriff earlier this year. In February, a White supremacist 
killed officer Nick O'Rear in Alabama.
    In 2006 the FBI released an intelligence assessment warning 
of, quote, ``White supremacist infiltration of law 
enforcement.'' The FBI identified two distinct problems.
    First, the FBI noted the problem of White supremacist 
groups infiltrating law enforcement. We've seen a lot of 
evidence of that in the 14 years since the FBI's assessment as 
officers across the country have been dismissed for active 
membership in the KKK and other similar groups. We will hear 
testimony about this problem today.
    But the FBI also identified a second problem: law 
enforcement officers who have no formal affiliation with racist 
groups, but who sympathize with their racist ideology. This too 
has been in plain view in this period of resurgent racist 
violence across America.
    In 2019, a team of investigative journalists published the 
Plain View Project, which collected over 5,000 postings 
displaying White supremacist, xenophobic, misogynistic, and 
violent Facebook material from police officers in eight 
different cities.
    We invited the FBI to come today. The Bureau refused to 
come, claiming it has nothing to say because they have no 
evidence that this is a widespread problem demanding the FBI's 
attention.
    What's more, they have attempted to disavow their own 2006 
intelligence assessment, which has every sign of being an 
authentic document. They did provide us an unredacted version 
of that 2006 assessment, which I am releasing today so the 
public can better understand how the FBI understood this threat 
and judge its subsequent actions--or lack thereof--accordingly.
    The redacted passages include prescient warnings for the 
American people. The FBI warns that, quote, ``White supremacist 
infiltration of law enforcement can result in abuses of 
authority and passive tolerance of racism within communities 
served.''
    The FBI also cautioned that police officers who are hostile 
to civil rights might, quote, ``volunteer their professional 
resources to the White supremacist causes with which they 
sympathize.''
    These are chilling conclusions. But rather than clearly 
spell out this threat for the American people, the FBI has 
suppressed them from public view for 14 years.
    For the first time, we can now see that the FBI believed 
internally that White supremacist infiltration of law 
enforcement departments was a serious problem, a source of 
potential abuse of power and authority on the street, and a 
source of potential violence against the civilian population.
    This summer, as the country was shocked to watch videos 
depicting the brutal and vindictive treatment of Black Lives 
Matter protestors, other videos emerged of police officers 
treating armed White militia as friends and as allies.
    In Salem, Oregon, police gave a polite warning to a group 
of armed White men asking them to ``discreetly stay inside the 
buildings'' after curfew so it would not look like police were 
playing favorites when they tear gassed protesters.
    In Albuquerque, officers were caught on a police scanner 
referring to White vigilantes as ``armed friendlies.''
    In Kenosha, Wisconsin, officers pushed protestors toward a 
group of armed White civilians. Police offered water to those 
armed men, one of whom shot and killed two people that night. 
The shooter, Kyle Rittenhouse, got away, despite walking up to 
police with his hands in the air, the murder weapon strapped to 
his chest, while onlookers identified him as the killer of two 
innocent Americans.
    The social contract depends on fair and neutral enforcement 
of the laws to protect the whole citizenry against criminal 
violence and state violence. We must work to disentangle the 
police power of the state from groups and individuals that 
subscribe to violent White supremacist ideology and seek to 
inflict harm on African Americans, Asian Americans, Latinos, 
Jewish Americans, LGBTQ Americans, and anyone who stands in the 
way of a race war and the civil war that the extreme right is 
calling for in America today.
    If local or state law enforcement were being infiltrated by 
ISIS or by al-Qaida or any other terrorist group we would 
consider it an immediate public safety emergency. Infiltration 
by violent White supremacy is no less of a threat and no less 
urgent. To confront it effectively, we must understand it. That 
is the purpose of today's hearing.
    So, I now would like to recognize the distinguished ranking 
member, Mr. Roy of Texas, for an opening statement.
    I went a bit over my time there, Mr. Roy, so please feel 
free to take the equal amount of time that you need.
    Mr. Roy. Well, I appreciate it, Chairman. The Chairman is 
always gracious to make sure that we have equal time and to 
handle that in that respect. So, I appreciate that. And good to 
see you from afar.
    As you know, this hearing is the fourth in our series on 
White supremacy. And we've had a number of good exchanges and 
dived into some of the facts over the course of the previous 
three hearings, and I certainly think it's important for us to 
do so.
    As you remember, I was particularly moved and wanted to 
understand the situation in Charlottesville as a University of 
Virginia graduate. Obviously, that hit close to home in talking 
to a mother who lost her daughter sitting there on the downtown 
mall in Charlottesville where I used to go as a student. Seeing 
this horrid series of events unfold, it was important for us to 
have that conversation. And I think it's important for us to 
have this conversation.
    I would note, and the Chairman knows, I mean, I've been 
asking repeatedly for the last year for us to have a hearing, 
for example, on human trafficking. There's 40 million people 
around the world suffering from human trafficking, some 20,000 
in the United States where we've had actual law enforcement 
engagement with them, which is a fraction of what we know is 
actually occurring in the United States. The estimates are 
upwards of 300,000 or 400,000.
    I think we should find time in our schedule for hearings on 
matters such as that. As the Chairman knows, I think it's an 
important issue. If you think about 300,000 or 400,000 people 
that are estimated to be engaged in--or to be the victims of 
human trafficking in the United States at any given moment, we 
ought to look at that.
    You know, look, I think we have to ask the question: Why is 
this now fourth in a series of hearings? I don't question the 
motives of the Chairman, but I would have to acknowledge that 
it is fairly obvious over the last X number of months that my 
Democratic colleagues really want to perpetrate a narrative 
that American law enforcement is either systemically racist or 
composed of White supremacists. And I just categorically reject 
that characterization of the almost 800,000 law enforcement 
personnel who are standing up on the Thin Blue Line for each 
and every one of us every day.
    As a former Federal prosecutor, I firmly believe we root 
out crime wherever we find it. We root it out. And we root out 
hate, we root out racism wherever we find it. That is our job, 
to go pursue it. I wholly agree with that.
    But it is a dangerous path, it is a dangerous path that my 
Democratic colleagues are pursuing in defining our law 
enforcement personnel as systemically racist. That's what's 
happening. That's what these things are doing. That's what this 
focus is doing.
    And by the way, it wouldn't matter if this hearing was just 
focused--that this hearing is just focused on law enforcement. 
My Democratic colleagues have made it abundantly clear that the 
United States of America is in and of itself systemically 
racist. That is the position of the modern Democratic Party, 
that our Nation is systemically racist. And that, to me, is 
fundamentally at odds with what this Nation actually has stood 
for and what this Nation actually has done.
    I come from a family with a history in law enforcement. My 
great-great-grandfather was a Texas Ranger in the county in 
which I'm sitting in right now in the 1870's, in Travis County, 
Hayes County, and Blanco County, and I'm proud of that.
    My grandfather was the chief of police of a small west 
Texas town, Sweetwater, Texas. He died of cancer when my dad 
was seven. My dad barely knew him because he had just come back 
from the war.
    By all accounts from everybody I have talked to my 
grandfather was a good, faithful public servant who was not 
racist in way. Everything I understand from my family, from my 
grandmother who was a single mom in west Texas, the first woman 
county clerk elected in Nolan County, Texas, when my 
grandfather died of cancer.
    I stand by my grandfather, and I stand by all the law 
enforcement officers that I worked with when I was the 
Assistant United States Attorney, working in the U.S. 
Attorney's Office in the Eastern District of Texas, and all of 
the fine law enforcement officers who worked for me of varying 
races when I was the first assistant attorney general.
    You know, when I was First Assistant Attorney General for 
Attorney General Ken Paxton here in Texas, we had 4,100 
employees. I will wholly acknowledge that, irrespective of race 
for a moment, if one percent of those 4,100 are doing anything 
crazy, insane, mean, hateful, racist, illegal, at any given 
moment, one percent of that 4,100, that's 41 people. And my job 
as First Assistant Attorney General was to go track these 
things down, have internal investigations, go look and figure 
out what's happening. I wholeheartedly embrace and believe in 
that.
    But when we, the institution of Congress, make blanket 
statements, using viral videos, to define a class of human 
beings standing on that wall for us every day, I'm troubled by 
that.
    There is a significant amount of evidence out there that 
suggests that there is not structural bias in the criminal 
justice system regarding arrests, prosecutions, or sentencing. 
Crime and suspect behavior, not race, determine most police 
actions.
    There are 70 million interactions, roughly--obviously these 
are estimates--70 million interactions between law enforcement 
and civilians every year. Now, if a million of those are 
troubling, problematic for varying different reasons, one of 
which might be race, one of which almost certainly is race, 
then we should root that out.
    But when you then categorically define 70 million police 
interactions, with 800,000 law enforcement personnel, as 
systemically racist, then you're undermining our entire rule of 
law, right? And we're seeing this unfold right now in front of 
us.
    You know, the past few months have brought police into the 
limelight and sparked a resurgence of anti-law enforcement 
rhetoric from the left and many in the media. And what has been 
the result? More violence in our streets, more police officers 
killed in the line of duty.
    More Americans, many of them in low-income communities, are 
suffering because their communities are crumbling at the hands 
of lawless mobs. They can't use the bus stop to take them 
across town to get to work because somebody smashed it to 
pieces. They can't get a loaf of bread from their local corner 
store because looters ransacked it, forcing the owner to close 
shop for good. The owner of a shop that has been in their 
family for years is now gone.
    Forty-five percent of Black-owned businesses have been 
decimated since the beginning of both the virus and all of the 
unrest on our streets.
    There are real consequences to what's going on on our 
streets. In many cases they cannot call the police for help.
    Just yesterday there was a thing that went on here in 
Austin where somebody was running through the Whole Foods in 
downtown Austin, where everybody's getting their little lattes 
and buying some arugula for their salad, somebody is running 
through. And they're worried about it, called the police. Well, 
guess what? There were no police to get there. Why? Because the 
Austin City Council, in its leftist infinite wisdom, had 
slashed the police department by a third.
    Look, data shows that when police backlash based on false 
narratives follows the release of a viral video, law 
enforcement tends to be less aggressive in pursuing 
perpetrators, resulting in an increase in crime and homicide, 
of which victims include all races.
    In the two weeks following the death of Mr. Floyd, more 
than 700 police officers were injured. Many lives have been 
lost and hundreds of millions of dollars in damage to private 
businesses and public property has been made. Across 20 major 
cities the murder rate at the end of June was an average 37 
percent higher than at the end of May. The murder rate. These 
are people, these are murders.
    And what about the police officer shootings with the intent 
to kill that we recently saw in Los Angeles and Louisville in 
the name of defending social justice. There were two officers 
killed in Louisville, at least one of whom was Black.
    Defunding the police, creating broad, false narratives 
about law enforcement and encouraging violence in our streets 
in the name of politics is harming our communities. You can't 
defund the police.
    For example, for total homicides year over year for the 15 
largest U.S. cities, Austin, in the district that I represent, 
ranked first at 64 percent increase. And just a few months ago, 
the city of Austin, as I said before, defunded one-third of the 
police department.
    More examples from Austin: 43 percent increase in murders, 
17 percent increase in aggravated assaults, 30 percent increase 
in statutory rape, 24 percent increase in arson, five percent 
increase in vandalism.
    Notably, due to their defunding, they canceled the 144th 
Austin Police Department cadet class, the most diverse cadet 
class for the department in its history. Half of the graduates 
were minorities. They canceled it. It's gone. All those people 
who wanted to serve in law enforcement, who wanted to serve in 
the community, who wanted to help protect their communities--
again, over half minorities--that class is gone.
    At least 46 police officers have been killed in the line of 
duty this year. I read all of their names on the floor of the 
House of Representatives last week. Where the hell was the NBA 
wearing their names on the back of their jerseys? Where the 
hell was the outrage for the law enforcement officers who lost 
their lives in the line of duty, standing up on that Thin Blue 
Line for us?
    Twenty-four-year-old officer, Katherine Mary Thyne, who was 
dragged by a car and pinned against a tree, dead. Police 
Officer Brian Brown, who was also killed in a vehicular 
assault, gone. Sergeant Damon Gutzwiller, who was ambushed, 
shot and killed, gone. Twenty-four-year-old officer, Breann 
Leath, who was shot in open fire responding to a domestic 
disturbance, gone, just to name a few. We already have an over 
50 percent increase in police officers killed in the line of 
duty with three remaining months left this year, but cities 
around the Nation are defunding their police departments.
    This committee, in my opinion, is giving a platform to 
harmful narratives, precluding the very idea of safe streets 
while hurting our communities. Safety and security should be 
nonnegotiable to this body. It is nonnegotiable to me as a 
father, as a Texan, and especially as a Member of Congress.
    I think, Mr. Chairman, I understand what we're doing here 
and the conversation we're having. These are important 
conversations. But we ought to be mindful of those 800,000 men 
and women who are going to suit up today to stand on that line 
for us.
    And I'm always entertained by those who are out on the 
streets and something happens, and there's violence because 
they're out at some protest, and the next thing you know, they 
go, ``Where are the police?'' That's happened to Members of 
this body, where they're looking around, ``Where are the 
police?''
    Well, I guarantee you that the thing that we're going to be 
asking is, ``Where are the police?'' if we continue to go after 
and assault them and blanketly condemn them as racists, as an 
institution of racism, as opposed to doing our lawful duty as 
Members of Congress or as law enforcement officers to go root 
out every single crime, every single action, one case at a 
time.
    With that, Mr. Chairman, I yield back.
    Mr. Raskin. Mr. Roy, thank you very much for your 
thoughtful remarks. And I hope I'll get a chance to respond to 
some of the things a bit later.
    One thing I do want to say right now is there is nothing in 
anything that I said--and there is nothing about this hearing--
which describes all of law enforcement as racist or a racist 
threat. On the contrary, my whole opening was about how violent 
White supremacy is a threat to the public interest, including 
to law enforcement itself.
    But I think we'll be able to discuss this more with the 
witnesses as they come through. And I thank you for your 
remarks.
    With that, I'm going to recognize the Chair of the 
oversight committee, Mrs. Maloney, for her opening statement.
    Mrs. Maloney. First of all, I want to start by thanking my 
good friend Chairman Raskin for convening this important and 
timely hearing. The subcommittee has already held three 
hearings focused on violent White supremacy, and Chairman 
Raskin's leadership on this issue has been inspiring.
    As Chairman Raskin said, racism is not new to America. It 
is particularly not new to Black Americans. Since our Nation's 
founding, racism has been used to treat Black Americans as 
second-class citizens--or no class citizens.
    We must never forget that policing in America started with 
slave patrols. Many slave patrols evolved into police 
departments that for decades have been used to ensure Black 
Americans could not exercise their full rights as citizens.
    We are dealing with that legacy today. Many police 
departments face the continued infiltration of White 
supremacists into their ranks. As the FBI found, and I quote, 
``militia extremists, White supremacist extremists, and 
sovereign citizen extremists often have identified active links 
to law enforcement officers,'' end quote.
    This year we have seen millions of people march in the 
streets. They are asking for the end of state-sanctioned 
killings and calling for the dismantling of systemic injustice.
    Their mission is straightforward. They are asking for the 
bare minimum: that our Nation be a place where the lives and 
deaths of Black Americans matter.
    But those protests have been met with violence, and in many 
instances police-sanctioned violence by White extremist groups.
    This hearing is not about good officers versus bad 
officers. This hearing is about making sure we as a Nation 
acknowledge that White supremacy has no place in any police 
department. The idiom does not end with, quote, ``a few bad 
apples.'' The saying is, ``A few bad apples spoil the bunch.''
    We cannot let White supremacy continue to spoil the bunch. 
Instead, we should all condemn the behavior that Chairman 
Raskin described.
    I am honored to attend this hearing. It is shameful, 
absolutely shameful that the FBI chose to ignore the 
committee's request to attend and instead disavowed their own 
terrifying findings about the pervasiveness of White supremacy 
in police departments.
    I look forward to hearing from our witnesses about their 
extremely important work. And I hope we remember the wise words 
of Chairman Cummings, that, ``We are with better than this,'' 
end quote.
    And I yield back. Thank you.
    Mr. Raskin. Madam Chair, thank you very much.
    I now want to introduce our witnesses.
    Our first witness today is going to be Michael German, who 
is a fellow at the Brennan Center for Justice. Then Vida B. 
Johnson, who is an associate professor of law at Georgetown 
University Law School, just a few blocks from the Capitol. We 
will also hear from Frank Meeink, an author and activist. Then 
we will hear from Mark Napier, who is the sheriff of Pima 
County, Arizona. And finally, we'll hear from Heather Taylor, 
who is the president of the Ethical Society of Police in St. 
Louis.
    The witnesses will now please unmute so I can swear you in. 
Please all of you raise your right hands, if you would.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Thank you.
    Let the record show the witnesses have all answered in the 
affirmative.
    Thank you. And without objection, your complete written 
statements will be made part of the record. You are given five 
minutes within which to give your oral presentation and then 
all of the distinguished members of the committee who have 
arrived, including Ms. Tlaib, who has just joined the 
subcommittee, are going to ask you questions.
    With that, Mr. German, you are now recognized for five 
minutes.

STATEMENT OF MICHAEL GERMAN, FELLOW, BRENNAN CENTER FOR JUSTICE

    Mr. German. Thank you, Mr. Chairman and members of the 
subcommittee. Thank you for inviting me to testify today about 
White supremacists and far right militant activity in law 
enforcement.
    In 1992, when I was with an FBI agent preparing to go 
undercover against neo-Nazi skinhead groups in Los Angeles, my 
colleagues warned that White supremacists often have relations 
with law enforcement and that I would have to strengthen my 
undercover identity to withstand law enforcement scrutiny.
    I worked closely in that operation and in a later one 
investigating far right militias in Washington state with 
officers from several different Federal and local law 
enforcement agencies who typically had more experience than I 
did. None suggested this was an unreasonable concern.
    So, I was not surprised when the FBI released its 2006 
intelligence assessment entitled ``White Supremacist 
Infiltration of Law Enforcement'' that alerted agents to this 
infiltration by organized groups and, quote, ``by self-
initiated infiltration by law enforcement personnel sympathetic 
to White supremacist causes,'' unquote, as it was the same 
warning I received a decade earlier.
    A leaked 2015 FBI counterterrorism policy guide makes the 
case more directly. It warns agents that FBI domestic terrorism 
investigations focused on militia extremists, White supremacist 
extremists, and sovereign citizen extremists often have active 
links with law enforcement officers.
    But when Representative William Lacy Clay asked FBI 
counterterrorism chief Michael McGarrity whether the Bureau 
remained concerned about White supremacist infiltration of law 
enforcement since the publication of the 2006 assessment at a 
June 2019 hearing of this subcommittee, Mr. McGarrity indicated 
he had not read it.
    Asked more generally about this infiltration, McGarrity 
said he would be suspect of White supremacist police officers, 
but their ideology was a First Amendment protected right.
    The 2006 assessment addresses this concern, however, by 
summarizing Supreme Court precedent on the issue. Quote: 
``Although the First Amendment freedom of association provision 
protects an individual's right to join White supremacist groups 
for the purpose of lawful activity, the government can limit 
the employment opportunities of group members who hold 
sensitive public sector jobs, including jobs within law 
enforcement, when their membership would interfere with their 
duties.''
    More importantly, the FBI's 2015 counterterrorism policy, 
which McGarrity was responsible for executing, indicates not 
just that members of law enforcement might hold White 
supremacist views, but that domestic terrorism investigations 
have often identified, quote, ``active links,'' unquote, 
between the subjects of these investigations and law 
enforcement officials.
    Its proposed remedy is stunningly inadequate, however. It 
simply instructs agents to protect their investigations by 
using the ``silent hit'' feature of the Terrorist Screening 
Center watch list so that police officers could not ascertain 
whether they were under FBI scrutiny.
    Of course one doesn't need access to secret FBI terrorism 
investigations to find evidence of explicit racism within law 
enforcement. Since 2000, law enforcement officials with 
connections to White supremacist groups or far right militant 
activities have been exposed in more than a dozen states around 
the country. Research organizations have uncovered hundreds of 
Federal, state, and local law enforcement officials 
participating in racist, nativist, and sexist social media 
activity, which demonstrates that overt bias is too common.
    Law enforcement officials actively affiliating with White 
supremacists and far right militant groups pose a serious 
threat to people of color, religious minorities, LGBTQ people, 
and anti-racist activists. But the police response to protests 
following the murder of George Floyd includes a number of law 
enforcement officers across the country flaunting their 
affiliation with far right militant groups.
    Police officers casually fraternizing with armed far right 
militia groups at protests is confounding because many states, 
including California, Illinois, and Pennsylvania, have laws 
that bar unregulated paramilitary activities.
    And far right militants have often killed police officers. 
As the Chairman stated, the ADL has reported that far right 
militants in fact have killed 51 police officers from 1990 to 
2018. The ambush, shooting, bombing, and killing of Federal law 
enforcement officers in Oakland and a local sheriff's deputy in 
Santa Cruz County, California, by far right militants 
highlights the threat that police engagement with these groups 
poses to their law enforcement partners.
    My written testimony includes detailed recommendations for 
Congress, for prosecutors, and for Federal, state, and local 
law enforcement. And I look forward to your questions. Thank 
you.
    Mr. Raskin. Thank you very much for your testimony, Mr. 
German.
    Professor Johnson, you are now recognized for your five 
minutes of testimony.

   STATEMENT OF VIDA B. JOHNSON, ASSOCIATE PROFESSOR OF LAW, 
                     GEORGETOWN UNIVERSITY

    Ms. Johnson. Thank you to the subcommittee members and to 
Chairman Raskin, Chairwoman Maloney, and Ranking Member Roy for 
the honor of speaking with you today.
    My name is Vida Johnson. I am an associate professor of law 
at Georgetown Law and I write about criminal procedure and 
policing.
    Before I begin, I want to make clear that I believe that 
the vast majority of people who become police officers do so 
for all the right reasons, including members of my own family. 
But nevertheless, it must be acknowledged that there's a long 
history of explicit racism on police departments, and, sadly, 
this legacy of racism continues today.
    Our nation is one of the most diverse in the world and our 
officers need to be able to protect and serve everyone in our 
community.
    In 2006, the FBI warned of White supremacists trying to 
infiltrate police departments. The Department of Homeland 
Security warned in 2009 that White supremacists were recruiting 
former military personnel and called it one of the biggest 
domestic terrorism threats in the United States. Warnings from 
these agencies went unheeded.
    In 2014, members of a police department in Florida were 
outed as members of the KKK. In 2015, an Alabama officer was 
identified as being a member of the League of the South. In 
2017, an Oklahoma police chief was discovered to be one of the 
most influential White supremacists in the country. In 2019, a 
prospective homebuyer toured a Michigan officer's home and saw 
a framed KKK application.
    In addition to officers who identify with these types of 
groups, some officers hold explicitly racist views without any 
hate group affiliation.
    The Department of Justice reports on Ferguson and Chicago 
make plain that officers used the n-word, along with other 
disparaging remarks about people of color, in the communities 
they police. And of course this year, in Wilmington, North 
Carolina, White officers were caught on tape looking forward to 
a race war and dreaming of wiping Black people off the map.
    Texting scandals involving officers in San Francisco and 
Miami make clear that this is a problem nationwide.
    In my 2019 Law Review article, ``KKK in the PD,'' I 
compiled accounts of 178 instances of explicit racial bias 
found in news stories. We know that this is just the tip of the 
iceberg. Some officers aren't so careless as to end up on the 
news, but still hold these views.
    The confidentiality statutes in many states make the issue 
of police discipline private, so they don't make the news. And 
of course the blue wall of silence keeps many of these officers 
on the force because others fail to report them for their 
explicitly racist views.
    We care about this problem because racist views can 
translate into racist deeds. We know that officers 
disproportionately stop people of color, and of course we worry 
most about violence. We know that the biggest torture scandal 
in policing involved John Burge, whose ``midnight crew'' in 
Chicago extracted confessions from over 100 African American 
men with the use of cattle prods and other torture.
    An officer in Little Rock, Arkansas, was honest when he 
reported to a police department that he had attended a Klan 
rally. He was hired anyway. He later went on to shoot and kill 
a 15-year-old unarmed Black boy.
    So, what are some solutions to this terrible problem? A 
more expansive view of Brady v. Maryland, if that were 
codified, we might come to a way to ferret out some of these 
officers.
    Brady v. Maryland is a Supreme Court case that makes clear 
that the government must turn over any information that is 
favorable to the accused, and that includes information that 
impeaches a witness' credibility; information in the police's 
possession is imputed to prosecutors.
    What would this look like? Prosecutors would have to 
investigate their officers and turn that information over for 
use at a public trial.
    Other solutions include better background checks in hiring 
of officers, zero-tolerance policies, searches of officer 
emails and texts for keywords associated with racial animus, 
social media policies in which officers agree as a condition of 
hiring to allow social media searches, and Federal licensing of 
officers, which would also allow for better screening and 
preventing officers from going from one department to another.
    We must weed out officers who hold racist beliefs rather 
than sweep them under the rug.
    I'm happy to take any questions.
    Mr. Raskin. Professor Johnson, thank you very much.
    I now recognize Mr. Meeink for his five minutes of 
testimony.

         STATEMENT OF FRANK MEEINK, AUTHOR AND ACTIVIST

    Mr. Meeink. Good morning. Thank you.
    Mr. Chairman and members of the committee, my name is Frank 
Meeink. I am a former White supremacist and neo-Nazi gang 
member.
    After I served my time in prison in 1994, I decided to 
leave the skinhead movement, now with the antibodies to the 
virus of hate.
    I've spent the last 25 years speaking out against racism. 
I've conducted hate crimes trainings for police officers, FBI 
and Homeland Security agents. I volunteer with the Des Moines 
Police Department as an announcer at their annual fundraising 
hockey game. I am also an activist for Black Lives Matter. 
Black lives matter.
    I've spoken out about the fact that White supremacist 
leaders encourage their followers to join the police force as a 
means to cause harm to people of color. I was there when it was 
said. I was in the room where it happened.
    I'm here to bear witness to my own experience. I grew up in 
a lower middle class, tough Irish Catholic neighborhood in 
South Philadelphia. I had a mother who was a drug addict and an 
abusive stepfather. I feared going home so much that some days 
I tried to get hit by a car.
    At the age of 13, I was kicked out of my mom's home and 
moved in with mydaddy, who lived in a mixed, very rough 
neighborhood in southwest Philadelphia. I was the new kid, a 
skinny punk rock White boy at an all-Black middle school. This 
is where my fear turned to hate.
    That summer I went up to visit my cousin in Lancaster 
County, Pennsylvania. This is Amish Country. And although my 
family was not Amish, and I promise you there are no Amish neo-
Nazis, I thought my cousin and his friends were cool. They were 
older. They were neo-Nazis. I would hear them make racist 
comments even though they'd never spent any time around Black 
people.
    When they heard where I went to school, I became the urban 
inner-city expert and I began to feel I mattered. The day that 
I decided to join this movement was the day I saw other people 
fear my group of friends. I saw them as powerful. Up until that 
point I might be a teenager, but inside I was a seven-year-old 
scared little boy who feared everything. I feared my parents, 
my stepparents, my school. I feared if I was going to have 
enough food to eat.
    I wanted people to fear me, so I became a member of the 
neo-Nazi movement. I got a swastika tattooed on my neck to 
prove my undying loyalty. I joined the movement for survival, 
which made me grasp onto every word that was said in the room.
    And here is what I heard. In 1991, I attended a meeting run 
by the White Student Union at Temple University. This was a 
monthly meeting of about 15 to 20 members. They were mostly 
college guys, so they were career-minded. They would use words, 
they would say to us that we need to grow out our hair, stop 
getting tattoos, and get ready to go into the military or 
police. Two people that were at that meeting later on became 
cops.
    That same year, I attended a small meeting in Baltimore run 
by the National Socialist Movement and a group called SS 
Action. I heard the same rhetoric there. They told us to join 
law enforcement so we can give Black people felonies so they 
would not be able to legally arm themselves and they would not 
be able to vote.
    Later, in Lehigh County, Pennsylvania, I attended a Hitler 
birthday party. This was put on by the Christian Posse 
Comitatus. And at that party Mark Thomas talked to us about how 
he was happy with our numbers. We had a lot of members. But he 
thought we were too rowdy. He said we needed to chill out and 
get rid of our tattoos and be better soldiers for the movement.
    Mark Thomas held Bible studies regularly. We would all 
gather inside these military tents in his backyard and we would 
read the Bible, shoot some guns, and prepare to destroy Sodom 
and Gomorrah. This experience was meant to militarize us and 
push us to gain more professional training in law enforcement.
    In 1992, I attended a meeting of about 100 people in 
Montgomery, Alabama. This meeting was run by the Aryan Youth 
Front, where Bill Riccio urged us to join the military so we 
could get real training.
    In late 1992, I went to Aryan Fest in a desert town in 
California. At that time, I still had a big swastika tattooed 
on my neck. Many people made comments about me, that I need to 
get rid of it and grow out my hair because we need all of our 
people to join the military and/or police.
    The fact that many of these neo-Nazis became cops means 
there's something not right with the screening process in law 
enforcement and I believe it is possible to fix.
    I hope that by me speaking out today, and with God's help, 
we can at least start stitching this wound in America and stop 
just putting Band-Aids on it.
    Breonna Taylor mattered. Black lives matter. Thank you.
    Mr. Raskin. Mr. Meeink, thank you very much for your 
compelling testimony.
    And, Sheriff Napier, you are now recognized for your five 
minutes of testimony.

    STATEMENT OF MARK NAPIER, SHERIFF, PIMA COUNTY, ARIZONA

    Sheriff Napier. Good morning. I appreciate the opportunity 
to appear before the subcommittee this morning, and I thank you 
for that. My name is Mark Napier. I am the sheriff of Pima 
County, Arizona.
    The law enforcement profession shares the concern that any 
bad actors may infiltrate its ranks. Moreover, we share 
community outrage at the conduct of a very few members of our 
profession when they act out with violence and racial animus. 
However, these are the actions of a very, very few members of 
law enforcement.
    Every day, in communities large and small, thousands of law 
enforcement officers make over a million contacts with the 
public that result in no use of force or give rise to the 
appearance of any racial bias. In point of fact, most public 
contacts with law enforcement are the result of a call for 
service.
    The law enforcement profession makes every effort to weed 
out bad actors. Our hiring and training process is rigorous. 
Prior to employment, we conduct comprehensive background 
investigations, oral interviews, polygraphs, and written 
examinations. Today, we even scan social media looking for 
troubling posts and questionable associations.
    Successful candidates then go through extensive training. 
This training includes cultural awareness training, racial bias 
training, and use of force training.
    Upon completion of academy training, new officers go 
through field training, where he or she is evaluated and 
observed by a tenured, high-performing officer.
    At the conclusion of field training, the new officer is on 
a probationary period for one year, during which time his or 
her performance is reviewed and observed by a field supervisor. 
The officer is then evaluated for the duration of his or her 
career.
    We take every step possible to weed out bad actors and bad 
candidates and then to professionally train, observe, and 
evaluate our officers throughout their career.
    It would be dishonest to suggest that bad actors do not 
slip through despite our best efforts. However, this is not 
unique to law enforcement. Every profession risks the prospect 
of a bad actor infiltrating its ranks and tarnishing its 
standing.
    These isolated occurrences, for any profession, should not 
be used as an indictment of its entire membership or as a 
catalyst to assert that the isolated bad acts are evidence of 
systemic prevalence. As Americans, we do not believe the bad 
acts of a few members of any group provide justification for 
bias, stereotyping, prejudice, and discrimination against all 
members of that group. This is always wrong, even when it's 
cast toward law enforcement officers.
    I've been a law enforcement officer since 1981. I hold a 
bachelor's degree in social psychology and a master's degree in 
criminal justice. I do understand the manifestations of both 
overt and implicit racial bias.
    Moreover, I believe that racism, discrimination, and 
socioeconomic inequality still exist in our country and 
constitute a serious problem. Racism has been a scar on our 
country since its founding, and I believe it is still alive 
today.
    During my three-decade career in law enforcement, I have 
not found any evidence to make me believe that racism or White 
supremacy is systemic--and systemic is a very important word--
in our profession.
    Assertions to the contrary I believe to be false, not out 
of naivete, ignorance, or a lack of personnel exposure to the 
profession, rather because I have simply not been exposed to 
any evidence that would lead me to reasonably believe that 
systemic racism and infiltration of White supremacy into the 
profession which I have dedicated nearly four decades of my 
life to is present in modern day law enforcement.
    Again, I appreciate the opportunity to testify before the 
subcommittee this morning and I welcome any questions that any 
members might have. Thank you.
    Mr. Raskin. Sheriff Napier, thank you very much for your 
testimony today and for joining us.
    Finally, we will hear from Heather Taylor, the president of 
the Ethical Society of Police of St. Louis, Missouri.
    And, Ms. Taylor, you are recognized for your five minutes 
of an opening statement.

  STATEMENT OF HEATHER TAYLOR, PRESIDENT, ETHICAL SOCIETY OF 
                       POLICY, ST. LOUIS

    Ms. Taylor. Thank you for having me this morning. I would 
like to start off. Once again, my is Heather Taylor. I recently 
retired, last Friday. I was a 20-year veteran of the St. Louis 
Metropolitan Police Department. I was a detective sergeant in 
the Homicide Section. However, I am speaking on behalf of the 
Ethical Society of Police.
    The Ethical Society of Police was founded in 1972 to fight 
racial discrimination in our community and our police 
department. We have approximately 325 members in the St. Louis 
City, St. Louis County, and Ferguson area. We are roughly 97 
percent African American.
    I am here to give my perspective on White supremacist 
ideologies and White supremacist sympathizers in law 
enforcement.
    The FBI report from 2006 about ``White Supremacist 
Infiltration in Law Enforcement,'' the Plain View Project, 
which affected our police department greatly, which exposed 
racist content by police officers, and numerous other reports, 
are clear examples we have a problem with White supremacy and 
racism in law enforcement.
    I want to provide my perspective by telling a true story. 
For nearly seven years, I have repeatedly reported an officer 
for his racism. I learned this officer had a penchant for 
making racist statements about Black people on social media. He 
once stated, ``Black people are pathetic.'' He also cheered a 
Black man being shot in the head, posting, ``You can take him 
out of the ghetto, but you can't take the ghetto out of him.'' 
A Black woman accused him of saying ``Only prostitutes and drug 
dealers own Bentleys.'' Another time, he made a racist 
statement about Black people and welfare.
    This officer was also reported for racial profiling by a 
citizen. He's also a field training officer, training hundreds 
of officers within our police department.
    He's never been fired for these statements and these 
complaints, despite people like myself, who is a sworn officer, 
and citizens making these complaints.
    These statements were not the worst of his actions. This 
officer and other officers killed a Black man under 
questionable circumstances in 2012. I was the scene 
investigator on that case. That case haunts me to this day.
    He used a banned chokehold. Another officer tased this man 
six times--six times. The officer violated numerous policies. A 
witness said that one of officers used the n-word during this 
incident. Others stated the victim resisted arrest.
    The use of the n-word, all witness statements relayed to 
me, all questionable actions by the officers were placed in a 
police report, an official document. The report was turned over 
to the Internal Affairs Division for review for criminal 
charges or discipline.
    I was told the officers were returned to full duty. No 
charges were filed. I just couldn't believe it, so I delivered 
a copy of the police report to the Circuit Attorney's Office in 
2013, months after the case was finally done. I just couldn't 
believe that there were no charges, there was nothing.
    To this day, I don't know if a grand jury ever reviewed the 
case for any form of charges. I don't know the discipline of 
that case.
    In 2020, this same officer that used that banned chokehold 
made an insensitive Facebook post about another Black man. This 
time it was George Floyd. It was about chokeholds and his 
belief that George Floyd's murder was justified.
    I believe more extensive background checks are necessary 
with hiring. I believe the immediate termination and removal of 
police certifications of officers that support White supremacy, 
that are corrupt in any way, that these officers should be 
removed immediately.
    And it is clear that anyone saying that you can train away 
racism, they're wrong. You cannot train away racism. You just 
can't. You need to weed it out. You need to fire them and 
terminate them if they're officers.
    I also believe that whistleblower protections need to 
become a priority. I've risked my life by reporting officers. 
I've received death threats from officers, officers liking the 
idea of me bleeding out on a call by myself.
    It's impossible to break the blue code of silence if there 
are no protections in place that empower officers to come 
forward.
    I would like to also state that in 2017, a Black officer, 
Milton Green, who grew up in the inner city, survived and 
became an officer, he was shot in 2017 by a White officer. 
There were racial undertones about that incident. That was in 
2017.
    Three months later, Detective Luther Hall was brutally 
beaten, in his own words, like Rodney King, by four White St. 
Louis City police officers. Those officers have been federally 
indicted.
    I would also like to state that COVID-19 is the leading 
cause of death for police officers and suicide. The leading 
cause of death. We are losing officers by COVID-19 and suicide. 
We have had 45 officers this year, unfortunately, including 
Officer Tamarris Bohannon, who was shot and killed, that have 
been shot and killed or died by force, use of force.
    I think it's important to address that sympathizing with 
White supremacy is a problem within our law enforcement 
communities. That is a reality. And what we see with the 
officer that I am speaking about in my example is that he is a 
field training officer. He's training other officers to become 
officers. There's no way that he should have been allowed to 
continue in this field.
    I would also like to add in this that there was a recent 
study by Citigroup that listed that $16 trillion is a result of 
racism in our country--$16 trillion. That's what we have as a 
result of racism in our country. And that includes law 
enforcement and the settlements that have been made regarding 
racist officers and sympathizers within our police department.
    I welcome any questions. Thank you.
    Mr. Raskin. Thank you very much, Sergeant Taylor.
    And, with that, we have completed our witness testimony, 
and we will enter upon questions.
    I now will recognize myself as Chair for five minutes of 
questioning.
    I want to start with Professor Johnson to address the First 
Amendment implications of this, because I know that there are 
Supreme Court decisions that say that you can't discriminate 
against people in public hiring based on what their political 
ideology is, but I wonder if you would speak to the speech 
conduct distinction in some of the things, for example, that 
Sergeant Taylor just talked about in terms of officers letting 
their beliefs influence their actions on the job, either toward 
citizens, or toward fellow officers?
    Ms. Johnson. Sure. I would be happy to answer that 
question.
    So, I think it is important to note that public servants 
are limited in some of their speech in a lot of ways, and that 
is true for Federal employees, judges. There are all sorts of 
ways that we limit the speech of public servants. And there 
have been court decisions, most notably by the Second Circuit, 
that say that when an officer's speech is at odds with a police 
department's interests in having the trust of the community, 
that the interests of the police department outweigh the First 
Amendment concerns of the police officers.
    There was a famous case that took place in New York City 
about officers who had been a little afloat in expressing very 
racist stereotype, and, ultimately, the Second Circuit ruled 
that those officers could be immediately terminated.
    Mr. Raskin. Thank you, Professor Johnson.
    Mr. German, dozens of officers have been killed by White 
supremacists, as you point out. The unredacted FBI document 
that we have released today mentions different threats of White 
supremacists going out onto the police forces, as Mr. Meeink 
talked about, being encouraged to do by neo-Nazi groups. They 
talk about the risk of sabotage, the risk of having access to 
elected officials, the risk of having access to weaponry, and 
opportunities to use it.
    What do you think are the biggest risks of White 
supremacists actually infiltrating law enforcement?
    Mr. German. I believe the biggest risk is that the risk to 
communities policed by officers who are associated with White 
supremacist groups are engaged in other racist behavior. And I 
am disappointed that the FBI has disavowed, apparently behind 
closed doors, its 2006 assessment, particularly because the 
2015 assessment is much nearer in time, and much more direct 
about what it is talking about. Not just that officers might 
have White supremacist ideas, but that they have active links 
to subjects of FBI domestic terrorism investigations.
    And the reason I am concerned about that is because the FBI 
already deprioritizes the investigation of White supremacist 
violence. And this kind of disavowal disparages the work of 
very good and effective FBI agents who work these cases, 
despite the fact that they are not a priority.
    And there are a number of cases. The FBI, in 2017, ran an 
operation that identified two corrections officers who were 
involved in a Ku Klux Klan plot to kill a Black inmate. You 
know, these kinds of cases are critically important, and there 
are many of them. I could go on. And we don't want to have the 
FBI creating a chilling effect within its own agency that would 
slow down the investigations like this when we already have in 
civil rights color of law cases declination rates upwards of 96 
percent.
    So, you can imagine how hard that is to continue working 
when you have that kind of attitude from your superiors.
    Mr. Raskin. Thank you.
    Mr. Meeink, let me come to you. I think it may have been 
Sergeant Taylor who voiced some skepticism about whether you 
can train somebody out of their racism, and that that--
certainly that seems right in the abstract. On the other hand, 
maybe your career or your own evolution is a counterexample to 
that. We know Sheriff Napier spoke about the importance of 
racial-cultural sensitivity training.
    Do you think that is enough to make it work, and how did 
you get out of the White supremacist ideology that you were so 
steeped in? You have got to unmute.
    Mr. Meeink. Thank you. And thank you for the question.
    Everything can help. Anything that gets more people 
involved with other human beings is something that will always 
help. That is what changed my life, was having the consistent--
God put people in my life to prove me wrong consistently to 
take the right spiritual path.
    What I tell you--what I know about how I changed my racism 
is that I learned that empathy plus humility equals humanity, 
and I must be of service to people at all times, and that has 
changed my life dramatically for the better.
    The more important part about the policing is that we need 
to take this very seriously, and the fact that I am talking 
about events that were 30 years ago. Do you know how many 
movements and groups have started and have done the same thing 
since then? So, it is a real problem. It is really in there. We 
are finding more and more stories.
    Since my article came out in The Daily Beast a couple weeks 
ago, more and more officers have been outed, and we will 
continue to do that.
    The training is a great option. We need more people to 
really get involved with communities that they once hated or 
are afraid of. A lot of the officers that we are getting are 
officers that are coming from the suburbs, that come into the 
cites, or suburban police forces that are getting a lot of men 
that are full of fear, fear that I used to fear.
    I looked in the face of that man with his knee on George 
Floyd's neck. He had arrogant fear written all over him, and 
that is what leads to racism, and that is racism, is that 
arrogant fear----
    Mr. Raskin. Thank you. My time is all up, Mr. Meeink. Thank 
you very much.
    I now yield to the distinguished ranking member for his 
five minutes of questioning.
    You have got to unmute, Chip, if you are----
    Mr. Roy. Thank you, Mr. Chairman.
    I appreciate that, Mr. Chairman. I appreciate all the 
witnesses. Thank you for your testimony, particularly those of 
you who served in law enforcement. Not to, you know, belittle 
those who didn't, but just appreciate your-all's service and 
appreciate you, Ms. Johnson, who said that you have family 
members in law enforcement, so I appreciate you all being here.
    Mr. Chairman, I would like to put into the record an 
article that The Wall Street Journal had--it is an editorial to 
be clear--called ``Who Watches the Hate Watchers,'' about the 
Southern Poverty Law Center's recent turmoil. Knowing the video 
that was put out here at the beginning of the hearing was a 
Southern Poverty Law Center video----
    Mr. Raskin. Without objection.
    Mr. Roy. Yes. The journal just points out some of the 
issues that the Southern Poverty Law Center has had within its 
own ranks, and they have been kind of making some internal 
reviews about racism and sexism and other issues inside 
Southern Poverty Law Center. Just putting that in the record as 
indication that this is--we have societal questions, and so, I 
am perfectly comfortable having these conversations here with 
law enforcement as well, but that we should be looking across 
all these organizations, particularly organizations who are 
focusing so heavily on it.
    A question for Sheriff Napier. Could you describe, sir, the 
current difficulties you have in the hiring process and some of 
the processes you all go through with respect to diversity and 
training and your hiring processes?
    Sheriff Napier. Well, clearly, hiring is a significant 
challenge right now. The current national rhetoric around law 
enforcement has not helped that, especially trying to recruit, 
as we desperately do, people of color and people from 
socioeconomically disadvantaged background is especially hard, 
because when you have this supposition that there is systemic 
racism in the profession, it seems unwelcoming to people of 
color and people from socioeconomically disadvantaged 
background.
    So, it is an extreme challenge for all of us right now to 
hire, but then, also to retain. Once people get into this 
profession, it is now more difficult to retain them.
    My son is a Tucson police officer. And, with some of the 
recent events, he said something that I hope will touch all of 
your hearts. He told me that when he became a police officer, 
he said, ``Dad, I was willing to lay down my life for my 
community. I realized that that was part of what I had signed 
up to do.'' He said, ``but, Dad, I never signed up to be hunted 
like an animal.''
    And the execution and the ambush of law enforcement 
officers has a very disquieting and chilling effect on law 
enforcement officers and the ability to recruit these young 
people. So, this is an ongoing challenge, and it is not getting 
better anytime soon. There are certain economic drivers, of 
course, but the current rhetoric around law enforcement is not 
helping our recruiting efforts, especially into these 
communities where we would ready like to recruit better.
    Mr. Roy. Sheriff, would you find it troubling--you are not 
the sheriff here in Travis County, Texas where the city of 
Austin is, which I represent, but the city of Austin just cut 
its department by a third, upwards of $150 million. They are 
now having to reroute and take folks from one--for example, the 
drug unit, they are having to move people off of that just for 
regular patrol. They are having now--and sometimes--and they 
canceled--as I noted in my opening statement, they canceled the 
entire recruiting class, this existing class, which was the 
most diverse in history.
    Do you see that as a problem? Do you see that as something 
that might be a nationwide problem beyond what I am just seeing 
here firsthand in Austin, Texas?
    Sheriff Napier. Of course. We are not asking law 
enforcement to do less. When I became a police officer in 1981, 
law enforcement was arguably pretty simple by comparison to 
what it is in 2020. We are asking law enforcement officers to 
be mental health professionals, substance abuse counselors. We 
are asking more and more.
    So, the idea that you would remove funding at the very time 
when we are asking more of law enforcement than we ever have is 
nonsensical. Should we have a great community dialog about the 
redefinition, redefining of what law enforcement does and what 
services it provides a community, and the manner in which those 
services are provided. That is a sensible dialog. But I think 
that results in greater funding to law enforcement, not less.
    I just approached my board of supervisors to have 
additional appropriations for the hiring of community 
engagement specialists, which will be people that have specific 
mental health and substance abuse training, that will respond 
to calls that normally a deputy would respond to, because they 
are a better tool. So, we are actually going in the opposite 
direction.
    Mr. Roy. Sheriff, I have got 30 seconds left, and I want to 
be mindful of the clock as the Chairman just did, and I would 
just close with this question:
    You just touched on a very important issue that I would 
love us to have a long conversation about. The additive nature 
of having additional resources and mental health counselors and 
folks to support and supplement law enforcement, versus a blunt 
lack of law enforcement because of a reaction to issues that 
has been undermining law enforcement. Can you just speak to 
that, the additive nature versus the subtractive nature?
    And then I will yield back, Mr. Chairman.
    Sheriff Napier. Yes. I think the community is rightly 
concerned about what role law enforcement fills, and we are 
better able to fill that with more resources, not less. And the 
indiscriminate arbitrarily cutting of a third of a law 
enforcement agency is nonsensical, and does very little to 
enhance public safety, or to enhance the ability of law 
enforcement to respond to the evolving needs and desires of the 
community for public service.
    So, I would conclude there. Thank you.
    Mr. Raskin. Thank you, Mr. Roy. Thank you. Thank you, 
Sheriff.
    I now recognize the Chair for her five minutes of 
questioning. Please unmute if you would, Mrs. Maloney.
    Mrs. Maloney. Hello? Can you hear me now? OK. Thank you.
    Mr. German, I want to zero in on your August 2020 report. 
In that report, you said that the FBI had previously identified 
the main problem of White supremacy in law enforcement as, 
quote, ``a risk to the integrity of the FBI investigations and 
the security of its agents and informants,'' end quote.
    What do you mean by that?
    Mr. German. I certainly--thank you for the question, 
Chairwoman Maloney.
    I believe that my concern is, when you look at the 2006 
assessment and the 2015 counterterrorism guide, the FBI 
identifies the primary problem of White supremacist 
infiltration of law enforcement is the risk it poses to FBI 
investigations and law enforcement personnel, rather than 
recognizing that the FBI also has a mandate to protect civil 
rights. And I believe that the primary problem with White 
supremacist infiltration of law enforcement is the threat it 
poses to the communities these officers police, and 
unfortunately, that is not--even with the full redactions 
removed, that is not the primary concern reflected in those 
documents.
    Mrs. Maloney. Well, it seems that the FBI disagrees with 
you. They have refused to provide testimony for this hearing, 
and they have repeatedly told us that the 2006 threat 
assessment is an irrelevant and outdated document.
    So, in your report, you note that the FBI report does not 
address the potential harm White supremacist police officers 
pose, quote, ``to communities of color they police or to 
society at large.''
    What is the impact on communities of color--can you 
elaborate, when police tolerate racism in their ranks?
    Mr. German. The criminal justice system, there are racial 
disparities at every step, from who the police stop, to who 
gets searched, to who gets arrested, to how they are charged, 
to use of force charges. And we have seen these disparities 
persist over many decades now.
    And, as long as there is a continuing persistence of White 
supremacist involvement and racist behavior in law enforcement, 
that is going to color the perception the public has about 
police, particularly in the communities that are most heavily 
policed. And that disruption between the law enforcement and 
the communities they serve undermines the security of all of 
us.
    Mrs. Maloney. Also, in the 2006 assessment, the FBI stated, 
and I quote, ``white supremacist infiltration of law 
enforcement can result in other abuses of authority and passive 
tolerance of racism within communities served,'' end quote.
    Do you believe that observation has been borne out by 
current events that we have been observing the past few months?
    Mr. German. I do. And, again, this isn't a new problem, and 
there are FBI agents and field officers across the country who 
are doing good work on this topic, but, because that work is 
deprioritized within the FBI, it becomes difficult for them to 
be as successful as they need to be. And, you know, I would 
particularly look at civil rights color of law violations and 
the high rate of declination.
    Mrs. Maloney. Given all this, do you think that it is 
irresponsible of the FBI to continue to ignore this problem?
    Mr. German. Absolutely. If the problem is large enough for 
the FBI to warn its own agents, I think it is important that 
the FBI and the Department of Justice put a national strategy 
to protect the public from these officers as well.
    And I totally agree that this is a small minority of police 
officers who are engaged in this behavior, but as long as it 
persists, it affects the whole system.
    Mrs. Maloney. Thank you.
    Mr. Meeink, earlier this month, you gave an interview to 
The Daily Beast describing how multiple members of your gang 
had infiltrated the police department.
    What would you say to those who think that White 
supremacist infiltration of law enforcement is not a real 
threat?
    Mr. Meeink. Thank you for the question.
    To answer that question, I know the facts. I know that 
there are people that I used to run with who are not very 
spiritually good people, and they are racist from the core, and 
I just would fear--if I was a Black person being pulled over on 
the side of the road, knowing the people I know that became 
cops, I would be fearful, too.
    I yield my time.
    Mrs. Maloney. This is my last question.
    Given your experience, do you believe that there is a real 
problem of White supremacist infiltration of the police 
department?
    And then I yield back.
    Mr. Meeink. Thank you.
    So, just to give you some experience real quick, I was a 
hockey coach for a long time. When I got out of the neo-Nazis, 
I had a great job of being a hockey coach. And the reason why I 
bring that up is because every hockey team has an agitator, 
right? He is the guy who goes out and starts trouble with the 
other team during the game.
    No matter what that man does, every person on that team has 
to stand up for him. So, when you have one racist Nazi cop in a 
precinct, the other cops might even not know his full beliefs, 
but just have to back him up at all times no matter what.
    And I think that is kind of the trouble that we are getting 
ourselves into, is that people--with the blue line, we will 
protect one another and not have to want to cause division 
between ourselves, even to call out somebody who is wrong. So, 
I worry about that, that they will protect each other because 
of the blue line, like a hockey team.
    Mr. Raskin. Thank you, Mr. Meeink.
    And the gentlelady yields back. Thank you, Madam Chair.
    I now recognize Mr. Clay for his five minutes of 
questioning.
    If Mr. Clay is not there, I am going to go to Debbie 
Wasserman Schultz, or it looks like she may have had to step 
away.
    Let's see. I am coming to Mr. Gomez. I see you are present, 
Mr. Gomez. You are recognized for five minutes.
    Mr. Gomez. Thank you so much, Mr. Chairman.
    One of the--Mr. Meeink, you have already given us your 
disturbing firsthand account of organized White supremacist 
attempts to infiltrate law enforcement. The FBI's 2006 
assessment added that White supremacist leaders and groups have 
historically shown an interest in infiltrating law enforcement 
communities or recruiting law enforcement personnel.
    Can you tell us how this assessment squares with your own 
personal experience?
    Mr. Meeink. Thank you for the question.
    Off of my personal experience, coming up in the neo-Nazi 
world, we weren't so much worried about the cops on the 
outside. We were more worried about FBI and other further 
investigations. So, we never had a full-on hatred toward the 
cops. They were just kind of a speed bump.
    But we knew that, in learning how to become police 
officers, we could affect our community better toward our 
views. And, when I say ``better,'' that is the disturbing fact 
and trend that I do see coming through the police department 
right now.
    Mr. Gomez. The FBI also noted in one of its redacted 
passages, revealed today by the subcommittee, that it was 
concerned about unreported instances and the infiltration that 
has gone undetected. It further noted that the possibility that 
infiltration has gone undetected is of great concern.
    As someone who has been in the room when organized White 
supremacists have had these conversations, do you think that 
the FBI is being irresponsible when, today, it discounts a 
likelihood that racism goes undetected or unreported?
    Mr. Meeink. So, I know that, in the rooms, what we always 
have talked about was how to try to get around their tests to 
make sure that they don't see that we have either a neo-Nazi 
past or neo-Nazi beliefs. So, it is talked about regularly 
about how to try to get around their--it actually becomes a 
goal of theirs, is to get around the screening process of 
police departments. That is talked about in the rooms all the 
time.
    Mr. Gomez. When these groups of White supremacists--is 
there often more than one or two, or how many would be in a 
particular police department, and would they operate more as a 
clique within that department or that station?
    Mr. Meeink. That would be projecting on my end, and I 
wouldn't have the facts to that, so I would really--I know that 
there is neo-Nazis that get in the police. I don't know how 
many do it at the time. I don't know--you know, I can't give 
you any--I don't want to speak out of turn or say something I 
am not--know as a fact. The other stuff I have talked about is 
fact. So, this, I don't know the answer to.
    Mr. Gomez. Well, the reason why I am asking that question, 
in Los Angeles County--and this is a question for Mr. German. 
In Los Angeles County, we have--the sheriff's department has a 
long history of having--some people call it cliques, other 
people call it gangs, that dominate station houses and often 
have been terrorizing Black and Brown communities.
    And I have actually appeared to the station. I went on 
ride-alongs with actually the sheriff's department in 
unincorporated east L.A., and it was something that I saw 
firsthand. One the stations in unincorporated east L.A. was 
called Fort Apache, right? So, last--so it is something that I 
actually witnessed myself.
    But, just last month, a lawsuit alleged that one of these 
gangs inducts new members after they have been involved in 
shootings, or acts of brutality, by giving them inking parties, 
where they are tattooed with Nazi imagery. Chairman Raskin and 
I have asked the DOJ to investigate.
    Mr. German, how do these violent gangs, or these cliques, 
fit into your view of White supremacist infiltration of law 
enforcement?
    Mr. German. It is certainly one manifestation of the 
problem, and, you know, again, it--when you see these 
instances, it is often through civil rights lawsuits, or 
investigative journalists who are uncovering these cases. And 
then law enforcement responds once it is a public scandal, 
where, of course, people in law enforcement understood this was 
an issue long before the investigative journalists or victims 
of these abuses come forward.
    And that is the problem with the FBI's reporting, is that 
it acknowledges there is a problem, but it--its solution is to 
advise its agents to protect their cases rather than having a 
comprehensive national strategy to identify these officers that 
are often known within their departments, and make sure that we 
are nipping this in the bud proactively, as we would if it was 
any other kind of terrorist group.
    Mr. Gomez. One last thing is that I want to just 
acknowledge that the sheriff's department in L.A. has different 
cliques or gangs, and some are White supremacist-affiliated, 
and some are multiethnic, and what happens is that, if you 
don't join that clique, there is a lot of pressure, like--as 
Mr. Meeink says, members who are joining, they're new to the 
law enforcement, they are new deputies, so like they won't be 
protected if their back is on the line while on the street. So, 
they have this weird pressure to join.
    And, in the end, law enforcement should be committed, not 
to an ideology, but to the department and its ability to 
protect and serve the people of their communities.
    With that, I yield back, Mr. Chairman.
    Mr. Raskin. Mr. Comer, you are now recognized for your five 
minutes.
    Mr. Comer. Thank you.
    My questions will be geared toward the sheriff. Sheriff, I 
appreciate you being here. I appreciate all the witnesses being 
here.
    You mentioned the hiring process in your remarks, and I do 
think it is important that we have a very heavy representation 
of minority police officers, minority law enforcement, 
especially in the minority districts. I think that would go a 
long way toward solving a lot of the distrust that exists out 
there.
    What are the current challenges you face with respect to 
hiring the right people and a diversity in hiring?
    Sheriff Napier. Well, I would say, to some degree, this 
very hearing does not help that. When you alleged that there is 
systemic infiltration of White supremacists and people with 
racially biased ideology within the profession, it is not 
welcoming to people of color, and that is understandable.
    I don't see that. What we are doing personally on my 
department is going down to inner-city high schools and trying 
to welcome these people very early on in their sophomore and 
freshman year of high school, trying to recruit down there, to 
say you have a home with our family, and to establish those 
relationships very early on.
    But this continual assertion that there is systemic 
infiltration of White supremacists and people with racial 
animus in this profession does not help that. And I don't speak 
about this, you know, from anecdotal evidence or from an 
academic perspective, but, rather, as a practitioner for 39 
years.
    Mr. Comer. Well, I couldn't agree more, and I was going to 
ask you how you felt like the current national dialog among the 
Democrats, because it is among the Democrats, implying the 
systematic racism, their, you know, constant drumbeating to 
defund the police in certain cities, cities which, by the way, 
need law enforcement more than anyone, and even this committee, 
the title of this hearing, ``White Supremacy in the Blue,'' I 
mean, what is that doing to law enforcement, or now the morale, 
to race relations? I mean, can you kind of give us an example 
of what it is like?
    Sheriff Napier. Well, I think it has strained our 
relationship further with the communities that we struggle 
historically to bond with. It has been an ongoing struggle 
through the entirety of my career.
    I would take you--I don't think this is purely a partisan 
issue. I think there are some Republicans that are concerned, 
myself being one of them, about having better relations with 
people of color, to better reach out, to better understand 
those communities. I think that is a responsibility that law 
enforcement needs to embrace without respect to partisan 
ideology.
    But these things are not helping our relationship with 
people of color and these disenfranchised communities that we 
historically struggle with.
    Mr. Comer. I completely agree and supported many parts of 
criminal justice reform, especially sentencing and things like 
that, sentencing injustices. I believe we need more minority 
law enforcement officers. I have always said that.
    But I do believe that the constant attacking of our law 
enforcement is heavily overweighted in the Democrat rhetoric 
right now, right before an election for obvious reasons, but, 
Sheriff, every profession has bad apples, and law enforcement 
is no exception.
    What challenges do you face with respect to weeding out the 
bad apples once they become employed as law enforcement 
officers?
    Sheriff Napier. Well, there are tremendous due process and 
union agreements that make it very difficult for us sometimes 
to weed out these bad apples, to--we have some people that have 
frightening disciplinary histories on our department, and it is 
hard to get rid of these people and to get them out the door.
    So, it is an ongoing challenge, and we do want law 
enforcement officers to have due process rights, and to be 
protected, like any citizen would expect to be protected in the 
employment environment. But, to some extent, maybe these 
protections have gone a little too far and are a little too 
constraining on executives like myself, who recognize a problem 
and think that this person might be better equipped to be in a 
different profession.
    Mr. Comer. Well, I completely agree. Let me thank you for 
your service, like all of our law enforcement women and men who 
put their lives on the line every day to keep us safe.
    I have 14 seconds left here. I do believe that, if we are 
looking for bipartisan opportunities, bipartisan opportunities 
for us to work together, Madam Chairwoman, would be to 
eliminate the barriers that law enforcement have, like the 
sheriff just mentioned, in making it easier to get rid of the 
bad apples in law enforcement.
    It is very difficult to fire someone once they get tenure 
or once they get merit, they become a civil servant, and it 
shouldn't be that way when you are dealing with bad--a few bad 
cops.
    With that, Mr. Chairman, I yield back.
    Mr. Raskin. Thank you, Mr. Comer.
    I now recognize Mr. Clay for his five minutes of 
questioning.
    Mr. Clay. Mr. Chair, did you say Mr. Clay?
    Mr. Raskin. Mr. Clay, yes. You are recognized for five 
minutes, and we have got you.
    Mr. Clay. Thank you so much to you, and Ranking Member Roy, 
for conducting this hearing.
    And let me also congratulate Sergeant Taylor for your 
retirement and your service to the St. Louis community over the 
years. We appreciate that.
    The types of posts and comments that the Plain View Project 
identified reflect anti-Black racism, anti-Hispanic racism, 
Islamophobia, homophobia, transphobia, and violence against 
civilians.
    Sergeant Taylor, our city, St. Louis, was one of the cities 
explored by the Project, and as the head of the St. Louis 
Ethical Society of Police, can you talk about how these racist 
attitudes translate offline?
    Ms. Taylor. Thank you for your question, and thank you.
    So, the attitudes, how they translate, is that, in the city 
of Missouri, you are 91 percent more likely to be stopped and 
pulled over if you are African American, compared to White 
drivers.
    Also how it translates is that African American officers in 
St. Louis City are 60 percent more likely to leave SLMPD within 
their first seven years.
    We also know that African Americans in our community 
overwhelmingly apply to become police officers, even in this 
environment right now. African Americans want to be police 
officers, then they apply. The catch is, that the hiring 
process is sometimes not fair.
    So, you have all those systemic factors that are in play, 
and they limit the opportunities of African Americans in our 
city to become police officers. And you think about the Plain 
View Project and what it did, is that it exposed these biases 
and these homophobia and racism, and what you see in a bigger 
picture is the systemic problems.
    Mr. Clay. And you mentioned in your testimony $16 trillion 
as a result of systemic racism. Do you have any idea of how 
much St. Louis has paid out for police misconduct and wrongful 
death settlements? Do you have any idea about that?
    Ms. Taylor. Oh, millions. Millions. We recently had an 
officer, a captain, who settled a lawsuit for one--over $1 
million for racism and discrimination.
    We have Detective Luther Hall, who was brutally beaten by 
four White police officers. His partner, who is White, who was 
working with him undercover, wasn't touched. So, Luther was 
beaten, but not his partner, who is White. So, that is likely 
going to be a settlement.
    Milton Green, who was shot by another White colleague, an 
officer coming to the aid of those officers, so that--you know, 
it is in the millions. They increased--doubled the budget for 
lawsuits now.
    Mr. Clay. Which burdens the taxpayer in a disproportionate 
way.
    Let me ask you about a certain attorney, Kim Gardner's 
exclusion--exclusionary list, where she does not take certain 
cases from officers who have--who are on this list. I noticed 
that some of them match up with these posts that are from this 
article.
    What does that do to the morale of police officers as--
well, as other--as German has said, for the good officers? What 
does that do when they see these cases not being taken, and the 
whole thing about not being disciplined for these racist posts 
that are put up?
    Ms. Taylor. It is very difficult. It is--in one sense, you 
are happy. You are absolutely--you are clapping that she is 
refusing to take their cases. But on the back end of it, we 
still have to work with these people. We have to work with 
people who are homophobic, who are racist, who are making these 
violent threats, and the belief--my belief is that a good 
majority of us are coming to work to do our job, and we do it 
fairly.
    However, we have to stand up. We have to stand up as 
officers, Black and White. When we see these posts by other 
officers, and we see corruption, we have to stand up, and it is 
our moral--as far as, you know, your spirits are down a lot of 
times within the police department when you see these things.
    Mr. Clay. Again, thank you for your service.
    And, Mr. Chairman, my time has expired. I yield back.
    Ms. Taylor. Thank you.
    Mr. Raskin. Thank you very much, Mr. Clay. I now recognize 
Ms. Wasserman Schultz for her five minutes of questioning.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    The threat of White supremacy has become really more 
dangerous than ever, and meanwhile, the presence of White 
supremacists embedded within law enforcement makes it more 
difficult to detect and counteract threats from violent hate 
groups.
    In June 2016, for example, California police officers were 
found to be collaborating and protecting members of the 
Traditionalist Workers Party, a neo-Nazi group, in order to 
target, quote, ``antiracist activists'' after a clash in 
Sacramento.
    In February 2019, a police lieutenant in Portland was 
discovered to have a long-running friendly correspondence with 
a leader of Patriot Prayer, a far-right extremist group.
    My own South Florida community has not been immune to hate 
within its own law enforcement ranks. In 2015, four Fort 
Lauderdale police officers were found to have exchanged 
violently racist text messages, leading to the dismissal of at 
least three-dozen cases against Black defendants.
    Now, I don't want to give the impression that this is 
representative of all law enforcement, but these examples, 
alone, are too many, and they undermine our Nation's promise of 
equal justice.
    So, Mr. German, my question is: Can law enforcement's 
responses to White supremacists be blunted by sympathetic 
officers who don't foresee right-wing terrorism as a threat?
    Mr. German. Absolutely can be. And I think the solution is 
to--as Professor Johnson has advocated, that
    [inaudible] prosecutors have to find them, and as Sergeant 
Taylor has suggested, protecting the good officers who report 
their colleagues when they engage in racist behavior, so that 
we can have a system that the good officers are able to report 
the misconduct of their colleagues without themselves being 
targeted, and then the prosecutors can make sure that those 
officers' testimony is not being used in a way that would 
undermine the rights of defendants who are charged with crimes.
    Ms. Wasserman Schultz. Sergeant Taylor, have you noticed a 
difference between how your colleagues assess threats posed by 
violent White extremists as opposed to those of other groups, 
like individuals, for example, protesting George Floyd's 
murder?
    Ms. Taylor. Yes. We have had colleagues that have been 
White and Black that believe that George Floyd was murdered. 
However, we do have employees that stated that, you know, it 
was justified, that seeing the knee in George Floyd's neck was 
justifiable. And that goes with my opening statement that that 
officer was one of them, but he is not the only one.
    And what that does is that it divides--it brings in that 
divide once again that just we are on opposite ends a lot of 
times when it comes to things like that along racial lines, and 
it doesn't help bring us together in--to do our job 
effectively.
    Ms. Wasserman Schultz. Thank you. Last month, we saw a 
video of police in Kenosha providing water, for example, to 
right-wing militia members and telling them that they, quote, 
``appreciated their presence'' even though they were heavily 
armed and out after a county curfew.
    Later that night, one of those militia members, 17-year-old 
Kyle Rittenhouse, allegedly opened fire and killed two 
protesters.
    Mr. German, in your experience going undercover with White 
supremacist groups, do you think that these extremists believe 
law enforcement, whether implicitly or explicitly, is more 
aligned with their world view?
    Mr. German.
    [Inaudible] there has more
    [inaudible] believe so, and my frustration is those in law 
enforcement don't seem to recognize the danger that is their 
colleagues. You know, we have been a
    [inaudible] department of 30 officers--Santa Cruz County 
sheriff deputies attacked by far right militants. We haven't 
seen a change in police behavior toward these militants, and I 
think that poses a threat not just to the communities these 
police officers serve, but to law enforcement officers 
themselves.
    Ms. Wasserman Schultz. As I close, it is time that we 
acknowledge the dangers of a police culture that compromises 
its ability to address violent right-wing extremists by 
tolerating it within its own ranks, even if by a small 
minority. And I was glad to hear Mr. Comer say that we need to 
go after bad apples, but, by failing to fully tackle what 
internal law enforcement studies have flagged as a problem, the 
public confidence in our police is further eroded at a time 
when we can least afford it.
    So, I appreciate the opportunity to have this hearing 
today, and I yield back.
    Mr. Raskin. Thank you, Ms. Wasserman Schultz.
    I now recognize Ms. Ocasio-Cortez, the vice chair of the 
subcommittee, for her five minutes of questioning.
    Ms. Ocasio-Cortez. Thank you so much, Chairman Raskin, and 
thank you to all of our panelists, to our witnesses here today 
for your testimony and offering your insight.
    Before I begin, I would like to ask unanimous consent to 
submit to the record a Department of Justice--a report on hate 
crime victimization, and a CNN article which summarizes the 
report.
    Mr. Raskin. Without objection.
    Ms. Ocasio-Cortez. Now, far too much of the discussion 
around the issue of White supremacist infiltration in policing 
focuses on whether this problem exists at all, and we have 
known for generations that it is not a question about whether 
this problem is an issue, it is a matter of how we have allowed 
it to sustain for so long.
    Congress, as well, has been complicit, and our silence has 
allowed for more violence and continued generational trauma in 
our communities, and the question was raised by the ranking 
member earlier: why do we keep talking about this?
    We keep talking about this because we have not solved this 
problem. And I want to make very clear that, when we talk about 
systemic racism, we aren't litigating the individual attitudes 
of any one officer. We can all exist in racist systems, and you 
do not have to be racist or consciously racist in order to 
participate in these systems.
    And I think it is quite evident when you look at the 
outcome of the war on drugs. A systemic racism is about the 
laws that are on the books. It is about the types of 
enforcement that happens. It is about how many officers get 
designated to some communities more than others that yields 
racial disparities in their outcomes. It doesn't have to do 
with litigating each and every one individual officer. And that 
is really the issue that is at play.
    One of the things that I wanted to discuss is we have to 
stop asking about how--if White supremacy in policing exists, 
and I think we need to start figuring out how we can better 
determine the scale of this problem. How big is this issue?
    Mr. German, in your report, you write about the unbroken 
chain of law enforcement involvement in violent organized 
racist activity right up to the present day, but you also note 
that only rarely do these cases lead to criminal charges.
    So, why is that?
    Mr. German. Thank you for the question.
    I believe it is difficult to prosecute police officers, 
partly because of the way the civil rights laws are written and 
have been interpreted by the Supreme Court. So, there is 
certainly room for Congress to work on that, but, also, for how 
the FBI investigates these crimes, where--when there is an 
incident of alleged police brutality, that the law 
enforcement--the FBI will often investigate that very narrowly, 
much the way they do hate crimes. Are we able to prove that 
there is some kind of bias or intention to violate civil rights 
in this case, rather than looking comprehensively at that 
police officer's past to know whether that bias could be proven 
by other means?
    And then those cases are sent to Justice Department 
prosecutors, and the vast majority of them are declined for 
prosecution, so it becomes a matter of rote. FBI agents know 
that they just churn these cases out for declination.
    Ms. Ocasio-Cortez. Thank you.
    And, Sergeant Taylor, in your decades-long career in law 
enforcement, how often would you see officers who harbored and 
acted on White supremacist views actually held responsible for 
their actions?
    Ms. Taylor. Very rarely. Very rarely. We have an officer 
that, with COVID-19, who made a statement about Chinese 
Americans and COVID being spread in San Francisco, reported 
him, had a citizen report him decades before he had been 
disciplined for 30 days for using the N word, and he is still 
on the street patrolling. So, very rarely.
    Ms. Ocasio-Cortez. So, we have testimony that this is a 
problem, and it is not being--it is systemically not being 
addressed, but Professor Johnson, I have one last question.
    I think it is important that we talk about the legal 
mechanisms by which--kind of that perpetuate this issue. So, 
let's talk about qualified immunity. How does the legal system, 
in general, including qualified immunity, protect racist law 
enforcement officers from accountability, and how can we hope 
to evaluate the true spread of this problem given those 
barriers?
    Ms. Johnson. That is an excellent question. I think 
qualified immunity is certainly a barrier to holding police 
officers civilly liable. And then, we also have the fact that 
interests align between police and prosecutors, because the 
prosecutors depend so much on police officers to help make 
their cases, to see a situation where, you know, officers 
aren't being held responsible within their own ranks; they are 
not being held responsible by prosecutors, and they are not 
being held responsible through our civil courts.
    So, it is just a significant problem.
    Mr. Raskin. Thank you, Professor Johnson, Ms. Ocasio-
Cortez.
    I now recognize Ms. Pressley for her five minutes of 
questioning.
    Ms. Pressley. Thank you, Chairman Raskin, for convening 
this hearing. I think it is worth repeating history, and the 
roots of policing are inextricably linked to the Antebellum 
slave patrols of the South that led to the establishment of 
all-White police departments. And, since the Fugitive Slave 
Act, criminal law enforcement has meant the subjugation and 
dehumanization of Black lives.
    After the Civil War, police departments and local 
governments throughout the country were saturated with Ku Klux 
Klan members and sympathizers who refused to intervene in their 
campaign of terror. And, by the early 20th century, the KKK had 
over 1 million members.
    Mr. Meeink, given your experience with White supremacist 
groups, do you think that contemporary organizations have tried 
to continue this campaign of influence on law enforcement?
    Mr. Meeink. Thank you for the question.
    Yes, ma'am. I believe that, you know, the--a lot of the old 
neo-Nazi groups have now become more groups, like the Proud 
Boys, and a lot of those Proud Boys are filling and wanting to 
be police officers. They are now flying the cop flag at all 
their rallies and in their homes.
    I mean, they are--so the Proud Boys, who used to be the--
what I would consider and are the neo-Nazis of the early 1990's 
and 1980's, are planning to gear up to become law enforcement. 
That is their now new goal, because they see the damage they 
can do and get away with it. That is why they want to join. 
They know that they can--the war on drugs--as AOC said, the war 
on drugs and the treading on our Fourth Amendment allows bully 
cops to pull us in cars and bring dogs around us to search us 
when we have not committed a crime, and we are the citizens, 
and our civil servants should not be able to do that.
    I will yield my time.
    Ms. Pressley. Thank you. And it is clear from historical 
record that we cannot simply rely on training to address this 
problem. Across our country, racism is often ingrained in 
official and unofficial police training.
    So, take the case of Travis Yates. After the Minneapolis 
mayor banned so-called warrior training for the city's cops to 
reduce police violence, Yates offered to train Minneapolis 
police for free. And, this summer, in the wake of George 
Floyd's murder in Minneapolis, Mr. Yates, a police officer in 
Tulsa, Oklahoma, was recorded saying that Tulsa police shoot 
African Americans, quote, ``less than we probably ought to,'' 
end quote.
    Then there is John Guandolo, an ex-FBI agent, whom the 
Southern Poverty Law Center describes as, quote, ``notorious 
Muslim basher and conspiracy theorist,'' end quote. He has 
provided law enforcement trainings in at least seven states 
since leaving the FBI in 2008.
    So, Sergeant Taylor, have you heard of or had any 
experiences with these kind of racist violent trainings?
    Ms. Taylor. They do exist, and the example that I used in 
my opening statement, that officer's defensive tactics, a 
training officer, and he trains another jurisdiction, and 
after, you know, we complained on him, thank goodness they no 
longer use him to train other officers.
    So, yes, you know, he is steeped in violent ideologies, 
racism toward African Americans, Muslims, you name it, and he 
trains other officers.
    So, that is present. It is very much present in law 
enforcement with these officers, and they are allowed to fester 
and fester and fester. And the policies allow that.
    Ms. Pressley. And might I also just, you know, add to--for 
a moment, I appreciate the enthusiastic affirmation in support 
of the need to end qualified immunity. I have introduced a bill 
with Justin Amash to do that, to address the callous impunity 
and disregard for Black and Brown lives. I mean, there can be 
no justice without accountability, and there is no 
accountability for as long as we have that doctrine.
    Mr. German, have you seen other instances where police 
training has emerged as a pressure point for spreading White 
supremacist views?
    Mr. German. I identify--you know, even in implicit bias 
training, which we expect to be the most comprehensive in anti-
racism, I quote three separate trainers who say they 
specifically avoid mentioning explicit racism in law 
enforcement, because they don't want to offend their audience.
    And that, I think, is a bigger part of the problem, is 
that, by willingly turning a blind eye to this problem, we 
allow it to fester rather than taking it head-on and making 
sure we understand that we can't stop or correct implicit bias 
and unconscious bias if we don't address overt and explicit 
bias.
    Ms. Pressley. And Professor Johnson, given the sequence of 
events that took place in Kenosha, Wisconsin, when Kyle 
Rittenhouse murdered and injured Black Lives Matter activists, 
can you give us your view, because I think history is so 
important, on the evolution of American law enforcement as a 
protector and ally of White supremacist groups?
    Ms. Johnson. I mean, your question illustrates how 
significant this history is, I mean, between the first police 
departments being organized to catch enslaved people, to the 
lynchings that took place for decades without any White people 
being held responsible by law enforcement; to, you know, a lot 
of unrest that we saw in Los Angeles in the 1990's and 
elsewhere, that this is something that is consolidated power 
within the state, and it is used against people of color and 
poor people in this country.
    Mr. Raskin. Thank you. The gentlelady's time has expired.
    Ms. Pressley. Thank you.
    Mr. Raskin. Thank you, Ms. Pressley.
    And thank you, Professor Johnson.
    I turn now to the representative from the District of 
Columbia, Ms. Norton. You are recognized now for your five 
minutes.
    Ms. Norton. Can you hear me, Mr. Chairman?
    Mr. Raskin. Yes, we have gotcha.
    Ms. Norton. Thank you.
    This is a very important hearing that we are--and not the 
first one we have had on this subject. I am concerned that, 
despite identifying this problem, going back to 2006--we are in 
2020 now. The FBI has done nothing to address what has become a 
growing threat, and now they appear to be arguing that it 
doesn't exist at all.
    I note that two FBI witnesses did come before us last year. 
They gave us 2,000--more than 2,000 words of testimony. They 
didn't even use the words White supremacy once, and that is 
after the Charlottesville killing of Heather Heyer.
    Even more concerning for me is that there has been a recent 
whistleblower report that alleges that senior Trump 
administration appointees have attempted to suppress a segment 
of a DHS threat assessment that predicted an elevated threat 
environment from White supremacist groups this year. That is 
what I mean about a growing threat that is still being denied 
by the FBI.
    But, Mr. Chairman, I would like to flip to the other side 
of this issue, because I am concerned that, in recent years, 
the FBI has released a report on what apparently our experts 
agree is a fictitious movement they call Black identity 
extremism. I have found no expert that says any such thing.
    So, I would like to ask Mr. German: Do you know of any such 
movement of Black identity extremism, and what does it mean to 
you that the FBI would rather focus on what experts seem to 
agree is an imagined threat of Black identity extremists, but 
not on the threat of White supremacists and police?
    Mr. German. I think it is an example of the systemic bias 
that exists in law enforcement. The FBI remains an 
overwhelmingly White and overwhelmingly male organization, so, 
when their guidelines are altered to allow them to investigate 
groups without evidence of criminality, evidence of wrongdoing, 
they can target people that they are afraid of because of bias, 
rather than focusing on evidence that shows some individual or 
group that is engaged in violent conduct.
    Ms. Norton. Thank you.
    Professor Johnson, can you talk about barriers inside of 
Federal law enforcement that make it difficult to give the 
issue of White supremacy the attention it requires now?
    Ms. Johnson. Well, I think we just--Federal law enforcement 
lacks the political will to address it. There was an ABC poll 
in 2017 that found that 10 percent of Americans found it was 
acceptable to hold White supremacist or neo-Nazi views. So, you 
have to imagine that there may be a similar number of law 
enforcement officers that feel that way.
    And so, when you have got these problems inside of law 
enforcement and no real pressure from the outside to address 
this issue, it is going to continue to fester.
    Ms. Norton. Thank you.
    Finally, I would like to ask Sergeant Taylor: As a local 
law enforcement officer, what are you looking for from the 
Federal Government? That is what we have to focus on here as 
Members of Congress. What are you looking for from the Federal 
Government to help you combat this threat? What could we do?
    Ms. Taylor. I think that it is fair to--you can't
    [inaudible] the problem
    [inaudible] and speaking to the very people that are in the 
field that have experienced these atrocities that are Black, 
White, you know, homophobia, racism, all these different 
extreme views that officers have, we have to have those people 
at the table to discuss these things. And, if you don't have 
them there with these views that have experienced these things 
and fought these systems--and that goes for our community as 
well. If we don't have them present, everything can't be White 
and male. You have to have diversity there to bring these views 
into play to actually address them. It has to come from a well-
rounded perspective.
    Mr. Raskin. Thank you, Ms. Norton, for your questioning.
    And, finally, we come to Ms. Tlaib for her five minutes of 
questioning.
    Ms. Tlaib. Thank you so much, Chairman Raskin, for allowing 
this courageous hearing to happen.
    I do want to take a moment and recognize Sergeant Taylor's 
incredible courage as well. I know it hasn't been easy for you 
to speak the truth about what was going on while you were 
serving there. I am sure it is continuing even after 
retirement. So, we really do appreciate, especially in my 
community, that is 85 percent Black, I so appreciate you 
speaking up.
    The issue we are discussing is not speculation, and I 
really, you know, worry that we continue to say that it is some 
sort of theory out there. It has been proven that it is our 
reality today, and White supremacy, as you all know, has not 
been confined to Facebook posts. It is just evident that what 
is actually bleeding into our communities, and that is making 
us all unsafe right now.
    Recent horrific events have occurred in my district that 
have raised concerns for me. And, so, Professor Johnson, I want 
to start with you. Yes or no: Should we be concerned that some 
right-wing, White extremist groups see police departments as 
allies?
    Ms. Johnson. Yes, absolutely.
    Ms. Tlaib. So, this is something that I actually have seen 
firsthand in my district. Last year, the Detroit Police 
Department escorted a heavily armed neo-Nazi group waving Nazi 
flags and wearing swastika armbands as they disrupted a Pride 
festival.
    In the aftermath, the Detroit police chief defended the 
protection of his department that he gave to armed White 
supremacists, saying with regard to anti-racist counterprotests 
that, quote, ``Both sides were wrong,'' which drew outrage of 
course in our community.
    However, the treatment of Black Lives Matter peaceful 
protesters by Detroit police recently, they were met with 
beatings, chokeholds, tear gas, and the rest. They had to go as 
far, these protesters had to go as far as to get a Federal 
judge, which agreed, that they have to stop using batons, 
chemical agents like tear gas, and chokeholds on protestors.
    So, Professor Johnson, how does this kind of protection for 
neo-Nazis versus the violence toward those protesting right now 
for Black lives in Detroit, a city again that is 85 percent 
Black, make us safer?
    Ms. Johnson. Again, I think its evidence of exactly what 
this subcommittee is investigating.
    Ms. Tlaib. Thank you so much.
    You know, one of the things that is of concern to me is the 
FBI does not believe this topic was worthy of testimony today, 
even though their own report and assessments state that White 
supremacists have infiltrated police departments and could lead 
to tolerance of racism against Black communities.
    And so when I hear your testimony, Sergeant Napier, you 
know, Captain--or is it Sergeant, I believe, Napier--are you 
there?
    Sheriff Napier. I am, ma'am. Sheriff.
    Ms. Tlaib. Yes, Sheriff. I'm sorry.
    One of the things that concerns me, you know, you talk 
about your son, and I am of course concerned about a lot of 
things when it comes to policing in my community. But I want to 
take a close look at something that happened within your 
district.
    Last November, one of your officers was caught on camera 
tackling a Black teen in foster care who lives without arms or 
legs, Sheriff. OK? He was tackled by an officer under your 
leadership. He was also seen abusing another Black teen who was 
merely filming the incident. That officer was not charged.
    So, I'm wondering if that is the case of why you haven't 
been able to diversify your work force, your team, or some of 
the concerns I saw. I truly believe, you know, curious on your 
end what kind of treatment did that officer get? Was he held 
accountable?
    Sheriff Napier. Well, first, we presented that, as we 
should. We put the officer on immediate leave and presented 
that matter to the County Attorney's Office, who made the 
decision to decline criminal charges. I was not----
    Ms. Tlaib. So, he was never charged, correct?
    Sheriff Napier. That was a basis on----
    Ms. Tlaib. Do you think that is also leading to people not 
wanting to work for a police force that is constantly involved 
in criminal activity and assault of innocent civilians?
    Sheriff Napier. Well, it was deemed not to be criminal 
activity, ma'am----
    Ms. Tlaib. I understand.
    Sheriff Napier.--because the County Attorney's Office made 
that decision. I did not make that decision.
    Ms. Tlaib. I know. Sheriff, the system is broken, and I 
know you don't want to face the fact that you and your son are 
in a system right now that is broken. And I know you're 
deterring away from talking about it in that way.
    But, you know, going back to Sergeant Taylor, one of the 
things that I know the Black Lives Matter protestors in my 
district have been crying out is please invest more into our 
schools, invest more into our communities and neighborhoods.
    One of the things that I hear from my police officers is 
they weren't trained to be nurses or social workers or mental 
healthcare workers. They want to see more investment in that 
because that keeps them safe and that keeps the community they 
are supposed to be keeping safe of course safer.
    Can you talk a little bit about that, Sergeant Taylor? 
Because I feel like much of what many of these protestors are 
out there demanding was just a shift in recognizing their lives 
matter and recognizing that they have to have investment in 
their quality of life, which again makes the job of law 
enforcement obviously much more at ease versus right now where 
they're criminalizing communities of color?
    Mr. Taylor. Thank you for that question.
    I think that most law enforcement officers would prefer 
having social workers in our jobs, because we don't want to 
respond to a lot of these calls because we are ill prepared for 
it. I studied psychology and I'm still ill prepared for it even 
with empathy.
    And these ideologies about law enforcement are accurate in 
the sense that we have a problem with addressing our internal 
problems, first off. And then we have a problem with how we 
respond to these calls, because we want to put force in places 
that force is not necessary. This is what we're taught. We're 
taught to be these warriors where we should be guardians. And 
then even with being a guardian, we're ill prepared for that.
    So, when people talk about defunding the police, when they 
talk about reallocating these resources, it's necessary because 
we need more conflict resolution. We have a lack of that. We 
have a lack of that in law enforcement. We have a lack of de-
escalation.
    And so when you bring in people that have these four-year 
degrees, which most of us do not have, and you bring those 
people in who have these specialties and skills, it can offset 
us responding and shooting a 13-year-old in the back who has 
autism.
    So, it's important that we have these people in these jobs. 
And most of the time most law enforcement officers will agree 
that they don't necessarily want to respond on these calls 
anyway because we're ill prepared for it.
    Ms. Tlaib. That's exactly what I'm hearing. Thank you so 
much.
    And again, Chairman, I will pray for Sergeant Taylor. I 
know how extremely difficult it is for her to come up and speak 
the truth about this.
    And really so much respect for you today. Thank you so 
much.
    Mr. Raskin. Thank you, Congresswoman Tlaib.
    Thank you, Sergeant Taylor.
    In closing, I want to thank not just Sergeant Taylor, but 
all of our panelists today for their extraordinary 
participation, Michael German, Sergeant Taylor, Professor Vida 
Johnson, Frank Meeink, Sheriff Mark Napier from Arizona. Thank 
you all for coming and participating so intelligently in this 
important conversation.
    The question of the neutrality and the fairness of law 
enforcement all across America goes right to the question of 
our social contract. If you read any of the social contract 
theorists, John Locke or Thomas Hobbes or Rousseau, all of them 
said that we enter into society because we'll be safer inside 
the social contract than outside of it, which Hobbes said was a 
state of nature, a state of war and violence, nasty, brutish, 
in short.
    And so we enter the social contract, but we expect that the 
police who we pay to protect us will act with neutrality and 
fairness and respect for everyone in the community. And we know 
that the vast majority of officers enter with that idea.
    So, the infiltration of White supremacist members, 
activists, ideas, and attitudes is a threat to public security 
and public safety and is a threat to the reputation of the law 
enforcement function, which I think all of us agree on. It is, 
whether you consider it a few bad apples or a lot of bad 
apples, but those bad apples can spoil the reputation of the 
whole barrel.
    So, we hope that the FBI will stand up and take credit for 
the things that it is saying and doing to identify the problem 
and come up with a national strategy for making sure that we 
don't have that kind of infiltration and suffusion of White 
supremacist attitudes and ideas and actions in law enforcement.
    With that, without objection, all members will have five 
legislative days within which to submit additional written 
questions for the witnesses to the Chair, and we will forward 
them to the witnesses for their prompt response. I ask all of 
our witnesses to please get it back as soon as you can.
    And with that, I thank you all for your participation. The 
hearing is now adjourned.
    [Whereupon, at 12:20 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
